<html>
<title> - BENIGN BY DESIGN: INNOVATIONS IN SUSTAINABLE CHEMISTRY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           BENIGN BY DESIGN:
                  INNOVATIONS IN SUSTAINABLE CHEMISTRY

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 25, 2019
                               __________

                           Serial No. 116-41
                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
       Available via the World Wide Web: http://science.house.gov
       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-127PDF                  WASHINGTON : 2019         
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois


                         C  O  N  T  E  N  T  S

                             July 25, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

                               Witnesses:

Dr. Timothy Persons, Chief Scientist and Managing Director, 
  Science, Technology Assessment, and Analytics, U.S. Government 
  Accountability Office
    Oral Statement...............................................    15
    Written Statement............................................    17

Dr. John Warner, President and Chief Technology Officer, Warner 
  Babcock Institute for Green Chemistry
    Oral Statement...............................................    40
    Written Statement............................................    42

Dr. Julie Zimmerman, Professor and Senior Associate Dean, School 
  of Forestry and Environmental Studies, and Deputy Director, 
  Center for Green Chemistry and Green Engineering, Yale 
  University
    Oral Statement...............................................    55
    Written Statement............................................    57

Ms. Anne Kolton, Executive Vice President, Communications, 
  Sustainability, and Market Outreach, American Chemistry Council
    Oral Statement...............................................    76
    Written Statement............................................    78

Mr. Mitchell Toomey, Director of Sustainability, BASF in North 
  America
    Oral Statement...............................................    85
    Written Statement............................................    87

Discussion.......................................................    99

             Appendix I: Answers to Post-Hearing Questions

Dr. Timothy Persons, Chief Scientist and Managing Director, 
  Science, Technology Assessment, and Analytics, U.S. Government 
  Accountability Office..........................................   114

Dr. John Warner, President and Chief Technology Officer, Warner 
  Babcock Institute for Green Chemistry..........................   116

Dr. Julie Zimmerman, Professor and Senior Associate Dean, School 
  of Forestry and Environmental Studies, and Deputy Director, 
  Center for Green Chemistry and Green Engineering, Yale 
  University.....................................................   117

Ms. Anne Kolton, Executive Vice President, Communications, 
  Sustainability, and Market Outreach, American Chemistry Council   119

Mr. Mitchell Toomey, Director of Sustainability, BASF in North 
  America........................................................   121

            Appendix II: Additional Material for the Record

Letters submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   124

 
                           BENIGN BY DESIGN:
                 INNOVATIONS IN SUSTAINABLE CHEMISTRY

                              ----------                              


                        THURSDAY, JULY 25, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good morning, and welcome to our distinguished witnesses. 
We are here to discuss a very important topic, one that has 
enormous potential to change the way we protect human health 
and the environment. This hearing is an opportunity to discuss 
the opportunities and challenges for expanding the use of more 
sustainable chemicals and processes through the chemical 
science and engineering enterprise.
    I look forward to a discussion about the market drivers for 
sustainability in the chemical industry, the integration of 
sustainability in chemistry education, and the role of the 
Federal Government in supporting research and commercialization 
of these innovations.
    Chemistry touches every aspect of modern society. 
Innovations in chemistry have improved the performance of 
countless products we use every day, including cars, kitchen 
appliances, and clothing. These improvements have increased our 
productivity and our quality of life immeasurably.
    Unfortunately, many of the most widely used industrial 
chemicals are potentially hazardous to human health and the 
environment. PFAS (per- and polyfluoroalkyl substances), for 
example, has become an environmental and public health crisis 
in my home State of Michigan, which may have more than 11,000 
sites contaminated with PFAS chemicals. These chemicals have 
been linked to cancer and other disastrous health side effects, 
particularly for children and pregnant women.
    Instead of focusing on the containment and safe disposal of 
toxic waste products at the middle or end of the lifecycle, 
sustainable chemistry emphasizes the design of safer, more 
sustainable chemicals and processes at the beginning. However, 
the widespread adoption of sustainable chemistry principles has 
been hindered by a number of challenges such as a need for more 
research, a lack of coordination across the Federal 
Government--and that's something that we here at the Science 
Committee appreciate and champion, which is the interagency 
effort of making this Federal Government work better for the 
people it serves--the need for large capital investments, and a 
lack of consensus among stakeholders about how to characterize 
and assess sustainability in the chemistry industry.
    [The prepared statement of Chairwoman Stevens follows:]

    Good morning and welcome to our distinguished panelists. We 
are here to discuss a very important topic, one that has 
enormous potential to change the way we protect human health 
and the environment.
    This hearing is an opportunity to discuss the opportunities 
and challenges for expanding the use of more sustainable 
chemicals and processes throughout the chemical science and 
engineering enterprise. I look forward to a discussion about 
the market drivers for sustainability in the chemical industry, 
the integration of sustainability in chemistry education, and 
the role of the Federal government in supporting research and 
commercialization of these innovations.
    Chemistry touches every aspect of modern society. Nearly 
every object you see contains materials derived from or 
processed by industrial chemicals. Innovations in chemistry 
have improved the performance of countless products we use 
every day - including cars, kitchen appliances, and clothing. 
These improvements have increased our productivity and our 
quality of life immeasurably.
    Unfortunately, many of the most widely used industrial 
chemicals are potentially hazardous to human health and the 
environment. PFAS, for example, has become an environmental and 
public health crisis in my home state of Michigan, which may 
have more than 11,000 sites contaminated with PFAS and PFOA 
chemicals. These chemicals have been linked to cancer and other 
disastrous health side effects, particularly for children and 
pregnant women.
    Chemical companies and the public are rightly concerned 
about risks of industrial accidents like chemical spills, 
explosions, or fires. Another concern is the reliance on fossil 
fuels in the production process and the chemical industry's 
contribution to greenhouse gas emissions. Manufacturers use oil 
and natural gas as the starting material for many of the 
chemicals they produce. Fossil fuels are also the primary 
source of energy for production.
    Sustainable chemistry is a new paradigm for chemical 
research and innovation that is motivated by environmental 
stewardship and protecting human health and welfare. Instead of 
focusing on the containment and safe disposal of toxic waste 
products at the middle or end of the lifecycle, sustainable 
chemistry emphasizes the design of safer, more sustainable 
chemicals and processes at the beginning. Careful consideration 
of the life-cycle implications of new chemicals and 
manufacturing processes can reduce or eliminate hazards to both 
human health and the environment. Reducing the amount of raw 
materials and energy used in the manufacturing process is also 
good for the company's bottom line. It's a win-win proposition.
    However, the widespread adoption of sustainable chemistry 
principles has been hindered by a number of challenges. Chief 
among these are a need for more research, a lack of 
coordination across the Federal government, the need for large 
up-front investments, and a lack of consensus among 
stakeholders about how to characterize and assess 
sustainability in the chemical industry.
    We will also hear our expert panel's input on the 
bipartisan Sustainable Chemistry Research and Development Act, 
introduced by Congressman Lipinski. The bill provides for 
improved coordination of Federal activities, including research 
and development of more sustainable chemicals, processes, and 
systems. The bill also supports improved education and training 
in sustainable chemistry and expands opportunities for the 
Federal government to partner with industry to bring 
innovations to market.
    I look forward to the testimony and discussion.

    Chairwoman Stevens. I would now like to yield the remainder 
of my time to my colleague, Dr. Lipinski.
    Mr. Lipinski. I want to thank you, Chairwoman Stevens, for 
yielding. Thank you for holding this hearing.
    I've long supported investments in research in our Nation's 
universities and national labs, as well as methods of improving 
technology transfer. Sustainable chemistry is one of the areas 
that I think merits extra attention, and I want to thank 
Chairwoman Stevens, Chairwoman Johnson, Ranking Member Baird, 
and Ranking Member Lucas for holding this hearing today.
    Chemical innovation means that products perform better and 
are more affordable. Increasingly, consumers are also demanding 
innovations that result in lower environmental impact. I'm 
concerned that the Federal Government does not currently do 
enough to incentivize basic chemical research that, when scaled 
at the industrial level, minimizes harm to human health and the 
environment. We need a national framework that incentivizes 
research on reactions that require less energy, processes that 
generate less waste, and products that are less harmful to the 
environment. If these concepts are considered at the basic 
research stage, companies will have more tools to create benign 
products while minimizing adverse environmental impacts. This 
is an opportunity for Federal, academic, and industry partners 
to work together in a way that will grow our economy and 
improve our environment.
    That's why I've introduced H.R. 2051 along with my 
Chemistry Caucus co-Chair Mr. Moolenaar. The Sustainable 
Chemistry Research and Development Act would improve 
coordination across the Federal Government for research, tech 
transfer, and training in sustainable chemistry. I thank many 
of my colleagues, including Chairwoman Stevens, for being 
cosponsors, and I hope others will join after this hearing 
today.
    I want to thank the witnesses for being here today. Again, 
thank the Chairwoman for holding this hearing; I think it's a 
very important hearing. I don't want anyone to take the fact 
that there are few Members here of a lack of interest. This is 
probably, fingers crossed, our last day before getting out of 
here for August. I think there is a great interest. I know 
there's been great interest in Members who I have spoken with 
about this bill, and I think it's something important that we 
can do in a bipartisan manner here. And I thank the Chairwoman 
again, and I yield back to her.
    [The prepared statement of Mr. Lipinski follows:]

    Thank you Chairwoman Stevens for yielding. I've long 
supported investments in research at our nation's universities 
and National Labs, as well as methods of promoting technology 
transfer. Sustainable chemistry is one area that merits extra 
attention. I thank Chairwoman Stevens, Chairwoman Johnson, 
Ranking Member Baird, and Ranking Member Lucas for holding this 
hearing.
    Chemical innovation means that products perform better and 
are more affordable. Increasingly, consumers are also demanding 
innovations that result in a lower environmental impact. I am 
concerned that the federal government does not currently do 
enough to incentivize basic chemical research that, when scaled 
at the industrial level, minimizes harm to human health and the 
environment.
    We need a national framework that incentivizes research on 
reactions that require less energy, processes that generate 
less waste, and products that are less harmful to the 
environment. If these concepts are considered at the basic 
research stage, companies will have more tools to create benign 
products while minimizing adverse environmental impacts. This 
is an opportunity for federal, academic, and industry partners 
to work together in a way that will grow our economy and 
improve our environment.
    That is why I've introduced H.R. 2051 along with my 
Chemistry Caucus co-chair, Mr. Moolenaar. The Sustainable 
Chemistry R&D Act would improve coordination across the federal 
government for research, tech transfer, and training in 
sustainable chemistry. I thank many of my colleagues, including 
Chairwoman Stevens, for being cosponsors. I hope others will 
join after this hearing.
    I thank the witnesses for being here, and I yield back to 
the Chairwoman.

    Chairwoman Stevens. Congressman Lipinski is right; we're 
fired up about sustainable chemistry.
    And before I recognize Dr. Baird, I'd like to present two 
letters for the record. The first letter is from the American 
Chemical Society, and the second letter is from GC3 on the 
Sustainable Chemistry Alliance in support of H.R. 2051.
    And with that, the Chair now recognizes Dr. Baird for an 
opening statement.
    Mr. Baird. Good morning, and thank you, Chairwoman Stevens, 
for holding today's hearing on innovations in sustainable 
chemistry. This hearing introduces or continues our 
Subcommittee's focus on new innovations and technologies that 
will drive the American economy into the future.
    Chemistry is essential to our economy and plays a vital 
role in helping to solve the biggest challenges facing our 
Nation and the world. From medicine to energy to production, 
chemical manufacturing touches our lives every day.
    In the Hoosier State--and I'd also say that's where Purdue 
University is--chemical manufacturing is one of the largest 
industries, and it represents over $27 billion of our State's 
economy every year. In my district alone, the chemical industry 
employs over 2,300 people.
    The United States is second only to Germany in the export 
of chemical goods. But global competition is increasing, and we 
must innovate to meet the demands of the 21st century. There is 
a market demand for chemical products that use resources more 
efficiently, are safer for both humans and the environment, and 
at the same time, consumers want these products to be just as 
effective or more effective than the traditional products of 
the past.
    Sustainable chemistry, or green chemistry is a relatively 
new field intended to meet this market demand.
    As we hear today, industry is investing considerable time 
and resources in research and development (R&D) for sustainable 
chemistry. I look forward to hearing from our witnesses about 
those innovations, and I really appreciate all of you witnesses 
taking the time to be with us today.
    I also look forward to hearing what appropriate role the 
Federal Government might play, whether it's investing in the 
basic research to address any knowledge gaps that we might have 
or helping the industry develop voluntary standards or metrics. 
I again thank Chairwoman Stevens for holding today's hearing, 
and I yield back.
    [The prepared statement of Mr. Baird follows:]

    Good morning and thank you Chairwoman Stevens for holding 
today's hearing on ``Innovations in Sustainable Chemistry.''
    This hearing continues our Subcommittee's focus on the new 
innovations and technologies that will drive the American 
economy into the future.
    Chemistry is essential to our economy and plays a vital 
role in helping to solve the biggest challenges facing our 
nation and our world.
    From medicine to energy production, chemical manufacturing 
touches our lives every day.
    In the Hoosier state, chemical manufacturing is one of our 
largest industries, representing over $27 billion of our 
State's economy every year.
    In my district alone the chemical industry employs over 
2,300 people.
    The United States is second only to Germany in the export 
of chemical goods.
    But global competition is increasing, and we must innovate 
to meet the demands of the 21st Century.
    There is market demand for chemical products that use 
resources more efficiently and are safer for both humans and 
the environment. At the same time consumers want these products 
to be just as effective, or more effective than traditional 
chemical products.
    Sustainable Chemistry, or Green Chemistry, is a relatively 
new field intended to meet this market demand.
    As we will hear today, industry is investing considerable 
time and resources into research and development for 
sustainable chemistry.
    I look forward to hearing from our witnesses about those 
innovations.
    I also look forward to hearing what appropriate role the 
federal government can play, whether it is investing in basic 
research to address knowledge gaps or helping industry develop 
voluntary standards or metrics.
    I again, thank Chairwoman Stevens for holding today's 
hearing, and I yield back.

    Chairwoman Stevens. The Chair now recognizes the Chairwoman 
of the full Committee, Ms. Johnson, for an opening statement.
    Chairwoman Johnson. Thank you very much, Chairwoman Stevens 
and Ranking Member Dr. Baird, for holding this hearing. And I 
would like also to welcome the expert witnesses and thank you 
for participating today.
    The purpose of this hearing is to explore the challenges 
and opportunities to expand the development, production, and 
use of more sustainable chemicals across our economy. The 
Science, Space, and Technology Committee first advanced 
legislation to promote sustainable chemistry 12 years ago. Back 
then, my Republican colleague, Congressman Phil Gingrey, 
introduced the Green Chemistry Research and Development Act of 
2007, which the Committee and then the House supported on a 
bipartisan basis. There was a bipartisan bill in the Senate as 
well. Unfortunately, it did not advance. And that was already 
10 years after Dr. Paul Anastas and Dr. John Warner developed 
the 12 Principles of Green Chemistry to guide the principle of 
sustainable chemistry.
    In this job, we know we have to take a long view. However, 
the longer we wait to take action on so many fronts the more we 
are seeing consequences of our inaction.
    The chemical industry, which created many of the great 
innovations of the 20th century, has also resulted in 
substantial harm to both human and environmental health. We 
rushed to develop innovations to make our lives easier and more 
convenient without considering the lifecycle cost. I'm 
concerned about the steps that this Administration has taken to 
reverse the little progress we've made in sustainable 
chemistry.
    In 2015, President Obama issued an executive order that 
required Federal agencies to purchase selected products 
manufactured with more sustainable chemicals, creating a market 
for these products. Our purchasing power is one of the 
important levers of government, and also a demonstration of 
leadership. Unfortunately, that executive order was rescinded 
by President Trump in May 2018.
    In addition, EPA (Environmental Protection Agency) has a 
longstanding program called STAR (Science To Achieve Results), 
which has been an important source of funding for sustainable 
chemistry research at our Nation's universities. The current 
Administration has proposed to eliminate that entire program. I 
spoke with the Administrator of EPA just yesterday on this 
program, of which he committed to look into.
    Even the National Science Foundation (NSF) could do more. 
While the agency has supported initiatives focused on 
sustainable chemistry, they have not made much effort to 
integrate the principles of sustainable chemistry into their 
broader portfolio of chemistry research and education.
    While I support additional investments in sustainable 
chemistry, leadership is not always about more money and new 
programs. I want to commend Congressman Lipinski for 
introducing the Sustainable Chemistry Research and Development 
Act. I'm happy to be a cosponsor of that legislation, and I 
look forward to advancing it on a bipartisan basis.
    Twenty years have passed since the 12 Principles of Green 
Chemistry were proposed. It is past time that the Federal 
Government, in partnership with the private sector, prioritizes 
investing in the research and tools to enable a sustainable 
chemical industry.
    I look forward to today's testimony and discussion, and I 
yield back.
    [The prepared statement of Ms. Johnson follows:]

    Thank you, Chairwoman Stevens and Ranking Member Baird, for 
holding this hearing. I would also like to welcome the expert 
witnesses and thank you for participating this morning.
    The purpose of this hearing is to explore the challenges 
and opportunities to expanding the development, production, and 
use of more sustainable chemicals across our economy. The 
Science, Space, and Technology Committee first advanced 
legislation to promote sustainable chemistry 12 years ago. My 
then Republican colleague, Congressman Phil Gingrey, introduced 
the Green Chemistry Research and Development Act of 2007, which 
this Committee and then the House supported on a bipartisan 
basis. There was a bipartisan bill in the Senate as well. 
Unfortunately, it did not advance in the Senate. And that was 
already ten years after Dr. Paul Anastas and Dr. John Warner 
developed the 12 principles to guide the practice of 
sustainable chemistry.
    In this job, we know we have to take the long view. 
However, the longer we wait to take action, on so many fronts, 
the more we are seeing the consequences of our inaction. The 
chemicals industry, which created many of the great innovations 
of the 20th century, has also resulted in substantial harm to 
both human and environmental health. We rushed to develop 
innovations to make our lives easier and more convenient, 
without considering the lifecycle costs.
    I am concerned about steps this Administration has taken to 
reverse the little progress we have made in sustainable 
chemistry. In 2015, President Obama issued an executive order 
that required Federal agencies to purchase selected products 
manufactured with more sustainable chemicals, creating a market 
for those products. Our purchasing power is one important lever 
of government, and also a demonstration of leadership. 
Unfortunately, that executive order was rescinded by President 
Trump in May 2018. In addition, EPA has a longstanding program 
called STAR, which has been an important source of funding for 
sustainable chemistry research at our nation's universities. 
The current Administration has proposed to eliminate the entire 
program.
    Even the National Science Foundation could do more. While 
the agency has supported initiatives focused on sustainable 
chemistry, they have not made much effort to integrate the 
principles of sustainable chemistry into their broader 
portfolio of chemistry research and education. While I support 
additional investments in sustainable chemistry, leadership is 
not always about more money or new programs.
    I want to commend Congressman Lipinski for introducing the 
Sustainable Chemistry Research and Development Act. I am happy 
to be a cosponsor of that legislation and I look forward to 
advancing it on a bipartisan basis. Twenty years have passed 
since the 12 principles of sustainable chemistry were proposed. 
It is past time that the Federal government, in partnership 
with the private sector, prioritizes investing in the research 
and tools to enable a sustainable chemical industry.
    I look forward to today's testimony and discussion and I 
yield back.

    Chairwoman Stevens. If there are any Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    At this time, I would like to introduce our witnesses. Our 
first witness is Dr. Timothy Persons. Dr. Persons is the Chief 
Scientist and Managing Director of GAO's (Government 
Accountability Office's) Science, Technology Assessment, and 
Analytics team. He also directs the GAO's science, technology, 
and engineering portfolio, as well as GAO's Audit Innovation 
Lab. He's a busy guy.
    Prior to joining GAO, Dr. Persons was the Technical 
Director for the Intelligence Advanced Research Projects 
Agency. He received his bachelor of science degree from James 
Madison University, a master of science from Emory University, 
and a master of science and Ph.D. from Wake Forest University.
    After Dr. Persons is Dr. John Warner. Dr. Warner is the 
Founder and Chief Scientific Officer of the Warner Babcock 
Institute for Green Chemistry, a research laboratory that 
partners with industry to develop green chemistry technologies. 
In 1998, Dr. Warner co-authored the 12 Principles of Green 
Chemistry, and he is currently the editor of the journal Green 
Chemistry Letters and Reviews. In 2004, Dr. Warner received the 
Presidential Award for Excellence in Science, Mathematics, and 
Engineering Mentoring for his work to increase participation of 
students from underrepresented populations in chemistry. Wahoo.
    Prior to founding the Warner Babcock Institute, Dr. Warner 
was a Senior Research Group Leader at the Polaroid Corporation 
and a Professor of Chemistry in Plastics Engineering at UMass 
Boston in Lowell. He received his B.S. in chemistry from UMass 
Boston and his Ph.D. in chemistry from Princeton University.
    Our third witness is Dr. Julie Zimmerman. Dr. Zimmerman is 
a Professor and Senior Associate Dean at the School of Forestry 
and Environmental Studies, and the Deputy Director of the 
Center for Green Chemistry and Green Engineering at Yale 
University.
    Prior to working at Yale, Dr. Zimmerman was a Program 
Manager at the U.S. Environmental Protection Agency, where she 
established the National Sustainable Design Competition, P3, 
people, prosperity, and planet. We like that, which is an 
award. She is also the co-author of the textbook, Environmental 
Engineering: Fundamentals, Sustainability, Design.
    Dr. Zimmerman earned her bachelor of science degree from 
the University of Virginia and her Ph.D. from the University of 
Michigan. Go blue.
    Our next witness is Ms. Anne Kolton. Ms. Kolton is the 
Executive Vice President of Communications, Sustainability, and 
Market Outreach for the American Chemistry Council (ACC). Ms. 
Kolton is responsible for the development and execution of 
domestic and international strategies to advance industry 
advocacy priorities, sustainability practices, and marketplace 
relationships with manufacturers and retailers.
    During the Administration of President George W. Bush, Ms. 
Kolton held a number of positions at the Departments of Energy 
and the Treasury, as well as Assistant Press Secretary in the 
White House Press Office. I also served at the Department of 
Treasury, so glad to be with a fellow Treasury alum this 
morning.
    Ms. Kolton is a graduate of Southwestern University in 
Georgetown, Texas.
    Our final witness is Mr. Mitchell Toomey. Mr. Toomey is the 
Director of Sustainability for BASF in North America. Prior to 
joining BASF, Mr. Toomey served as a sustainability expert at 
the United Nations where his most recent position was Director 
for the Sustainable Goals Action Campaign.
    Prior to joining the U.N., Mr. Toomey worked in the private 
sector helping to build two startups. He has earned a B.A. in 
philosophy and a master of business administration degree. And 
where was it from?
    Mr. Toomey. New York University.
    Chairwoman Stevens. Oh, right. Great. Thank you.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included for the record of the hearing. And when you've 
completed your spoken testimony, we will begin with questions. 
Each Member will have 5 minutes to question the panel, and we 
will start with Dr. Persons.

                TESTIMONY OF DR. TIMOTHY PERSONS,

             CHIEF SCIENTIST AND MANAGING DIRECTOR,

                SCIENCE, TECHNOLOGY ASSESSMENT,

                    AND ANALYTICS, U.S. GAO

    Dr. Persons. Thank you. Good morning, Chairwoman Stevens, 
Ranking Member Baird, and Members of the Committee. Thank you 
for the opportunity to discuss our technology assessment on 
sustainable chemistry.
    Chemistry contributes to virtually every aspect of modern 
life from the production of food and clean drinking water to 
medicines, cleaners, personal care products, and more. 
According to the American Chemistry Council, the chemical 
industry in 2016 supported more than one-quarter of U.S. GDP. 
Moreover, the Federal Government estimates that the chemical 
manufacturing industry employed more than 858,000 people in 
June 2019 and generated an additional 2.7 million indirect jobs 
via industry suppliers.
    Despite these positive contributions to quality of life and 
other social and economic goals, chemical production can result 
in negative health and environmental consequences. Many in the 
chemical industry are working to address these issues through 
improving the environmental sustainability of their own 
chemical processes and providing more sustainable products and 
technologies to others.
    In my testimony today, I will discuss an overview of the 
concepts behind sustainable chemistry, how the Federal 
Government, industry, and others contribute to the development 
and use of such technologies, and key opportunities and 
challenges.
    In spite of the lack of a standard definition for 
sustainable chemistry and lack of agreement on standard ways of 
measuring or assessing it, there are nevertheless common themes 
underlying what sustainable chemistry tries to achieve, 
including improving the efficiency and the usage of natural 
resources, reducing or eliminating the use or generation of 
hazardous substances, developing innovative chemical 
transformations, minimizing the use of nonrenewable resources, 
and considering all lifecycle stages when evaluating a product, 
as depicted in this figure up on the screen.
    The Federal Government, industry, and other stakeholders 
play a number of roles sometimes in collaboration to advance 
the development and use of more sustainable chemical processes 
and products. Federal programs support research on the impacts 
of chemicals on human and environmental health, support the 
development of more sustainable chemical processes and their 
commercialization, and aid the expansion of markets for 
products manufactured with more sustainable chemicals and 
processes.
    The chemical manufacturing industry, companies, and 
retailers, State governments, academic institutions, and NGOs 
(non-governmental organizations) also seek to influence the 
development and use of more sustainable chemistry processes and 
products through activities such as supporting workforce 
development, exploring breakthrough technologies, setting 
sustainability criteria or purchases, regulating chemicals and 
products, conducting research on chemical impacts, and 
developing tools and resources for industry respectively.
    Integrating these principles and activities together, the 
field of sustainable chemistry has the potential to inspire new 
products and processes, create jobs, and enhance benefits to 
human health and the environment. Much more work is needed to 
realize its full promise, including the following: First, the 
development of a robust definition of sustainable chemistry 
leading to a lifecycle assessment framework for metrics, 
measurement tools, and assessments.
    Second, the realization of a strategic and effective 
national initiative formulated by the Federal Government in 
partnership with industry, academia, and key nonprofit 
institutions.
    And third, the integration of sustainable chemistry 
principles into educational programs for the current and future 
generation of chemists.
    Although there are several challenges to implementing more 
sustainable chemistry technologies, including technological and 
business ones, the preeminent issue remains the lack of a 
standard definition for sustainable chemistry and lack of 
standard ways of measuring or assessing it. Without basic 
information such as a standardized approach for assessing the 
sustainability of chemical processes or products, better 
information on product content throughout the supply chain, and 
more complete data on the health and environmental impacts of 
chemicals throughout their lifecycle, stakeholders cannot make 
informed decisions that compare the sustainability of various 
products.
    In conclusion, there is a recognized need for new processes 
that make more efficient use of available resources, reuse 
products or their components during manufacturing, and account 
for impacts across the entire lifecycle of chemical processes 
and products. A transition toward the use of sustainable 
chemistry technologies is possible and could be catalyzed by 
national leadership and driven by cross-sectoral collaboration 
to help guide the future choices of consumers, chemists, 
workers, and others for overall economic, environment, and 
social good.
    Chairwoman Stevens, Ranking Member Baird, and Members of 
the Committee, this concludes my prepared statement. Thank you 
for your attention on this important issue, and thanks to the 
GAO team who made this testimony possible. I'd be happy to 
respond to any questions when you're ready.
    [The prepared statement of Dr. Persons follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  TESTIMONY OF DR. JOHN WARNER,

            PRESIDENT AND CHIEF TECHNOLOGY OFFICER,

          WARNER BABCOCK INSTITUTE FOR GREEN CHEMISTRY

    Dr. Warner. Chairwoman Stevens, Ranking Member Baird, and 
Members of the Subcommittee, thank you for the opportunity to 
speak today. My name is John Warner. I've been a professional 
chemist for 31 years with nearly 250 U.S. and international 
patents. I've worked with more than 100 companies helping them 
invent cost-effective green chemistry solutions.
    In the early 1990s, I was a chemist at the Polaroid 
Corporation. Because of one of my first inventions was Benign 
by Design I started interacting with the EPA's nascent green 
chemistry program.
    In the mid-1990s, Dr. Paul Anastas and I wrote the book 
Green Chemistry Theory in Practice that presents the set of 12 
principles to help chemists avoid the use and generation of 
hazardous materials. At that time I came to realize that few if 
any universities or university chemistry programs in the world 
require students to have any training in the understanding of 
the relationship between molecular structure and negative 
impacts on human health and the environment.
    Wanting to change the way we teach chemistry, I left to 
become a Professor of Chemistry and Plastics Engineering in the 
UMass system where we began the world's first Ph.D. program in 
green chemistry like a typical chemistry graduate program in 
chemistry but it added classes in toxicology, environmental 
mechanisms, and chemicals law and policy. In 2004, I received 
an award from President George W. Bush and the NSF for these 
efforts.
    As you will note, I have been using the term green 
chemistry, not sustainable chemistry. Both are important for 
the future of society. Sustainable chemists use a large 
umbrella concept that addresses many aspects of the chemical 
enterprises. Green chemistry specifically focuses on the 
inventive process to reduce hazards broadly in the first place. 
One way of looking at it, sustainable chemistry deals with what 
a technology does. Green chemistry deals with what a technology 
is. My point is that by mitigating risk by controlling and 
limiting exposure of hazardous materials will always come at a 
price. Every effort to reduce intrinsic hazards through green 
chemistry will lessen these associated costs.
    To demonstrate the economic viability of green chemistry, 
in 2007 Jim Babcock and I formed the Warner Babcock Institute 
for Green Chemistry that focuses on creating commercially 
relevant chemistry technologies consistent with the principles 
of green chemistry.
    Since its creation, we've partnered with over 100 companies 
to invent technologies across a wide variety of industry 
sectors. Our inventions have also been the foundation of new 
companies in personal care, in construction materials, 
pharmaceuticals, and energy. All of these inventions in such a 
short time with only 20 scientists is extremely fast and 
efficient. I feel that the major cause of our high productivity 
is the fact that we do green chemistry.
    In 2014, I was honored to receive the Perkin Medal, the 
highest honor in U.S. industrial chemistry. In 2016 I was named 
the AAAS-Lemelson Invention Ambassador. While I was the 
individual named in these awards, I feel that they're actually 
recognition of the entire growing field of green chemistry and 
the green chemistry community.
    In 2007, I cofounded the nonprofit organization Beyond 
Benign with Dr. Amy Cannon. Our K-12 curriculum and teacher 
programs integrate green chemistry and sustainable chemistry 
principles into the classroom. We develop and provide open-
access modules to all school levels that illustrate real-world 
industrial examples of green chemistry. Our higher education 
efforts support colleges and universities trying to implement 
green chemistry into their curricula. This is a very small 
organization. It needs to be emulated, it needs to be expanded.
    The Sustainable Chemistry Research and Development Act of 
2019 is a timely and important effort in maintaining and 
growing U.S. industrial competitiveness. It is important to 
underscore the critical need to see green chemistry as the 
fundamental differentiating concept within the framework. In 
order to have a workforce with the skills and training 
necessary to achieve these aspirational objectives, a specific 
focus on green chemistry must be central to this effort.
    Green chemistry has been around for nearly 30 years. Unlike 
sustainable chemistry, it is well-defined. It is an established 
science with dozens of international journals and nearly 50 
textbooks. For both environmental protection and economic 
competitiveness, it is urgent that the U.S. find way to 
accelerate education, incentivize investment, and facilitate 
more widespread adoption of green chemistry, the molecular 
science of sustainability.
    Thank you very much.
    [The prepared statement of Dr. Warner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                TESTIMONY OF DR. JULIE ZIMMERMAN,

              PROFESSOR AND SENIOR ASSOCIATE DEAN,

              SCHOOL OF FORESTRY AND ENVIRONMENTAL

         STUDIES, AND DEPUTY DIRECTOR, CENTER FOR GREEN

        CHEMISTRY AND GREEN ENGINEERING, YALE UNIVERSITY

    Dr. Zimmerman. Madam Chairwoman, Ranking Member Dr. Baird, 
and Members of the Committee, thank you for the invitation to 
be here today, and thank you for your attention on this 
important and urgent topic.
    My name is Julie Zimmerman, and I'm a Professor at Yale 
University in the Department of Chemical and Environmental 
Engineering, as well as the School of Forestry and 
Environmental Studies. I also serve as our Deputy Director for 
our Center of Green Chemistry and Green Engineering. I'm here 
to express my strong support for the Sustainable Chemistry 
Research and Development Act being considered.
    It is appropriate that this hearing is in the House Science 
Committee because, as we have heard earlier this morning from 
Dr. Warner, green chemistry is the science of sustainability.
    I'd like to make four brief points. First, to paraphrase a 
fellow New Jersey native, green chemistry was born in the USA. 
In the early 1990s, the green chemistry program was launched 
and was defined by Dr. Paul Anastas and Dr. John Warner as the 
design of chemical products and processes that reduce or 
eliminate the use and generation of hazardous substances. The 
term sustainable chemistry has been introduced more recently 
and possesses countless definitions.
    Green chemistry is chemistry. There are few people in the 
world that would argue that a sustainable future can be 
achieved in the absence of green chemistry. Everything we see, 
touch, and feel is a chemical, and green chemistry provides the 
opportunity to fundamentally redesign the material basis of our 
economy and our society.
    However, it is equally true that green chemistry alone, no 
matter how fundamental, broad in reach and impact, is not going 
to be sufficient for achieving a sustainable future. 
Sustainable chemistry cannot be conducted in the absence of 
green chemistry. Therefore, any construct of genuine 
sustainable chemistry would need to recognize that green 
chemistry is the centerpiece, heart and soul, central and 
essential element.
    Second, green chemistry is not a theory or merely an idea 
but rather a proven demonstrated success story over the past 20 
years. Green chemistry has filled scientific journals with 
world-class science that has invented new benign materials and 
molecules and has even been cited in Nobel Prize awards. It has 
not only been extremely effective in protecting human health 
and the environment, it has accomplished this while increasing 
profitability and competitiveness of almost every industrial 
sector. From plastics to pesticides, from energy to 
electronics, from building materials to biotech, green 
chemistry has a proven track record of success.
    Third, four words: Nothing to fight about. At a time when 
every environmental issue seems contentious and controversial, 
green chemistry has accomplished all of the success with 
astounding levels of strategic and systematic partnerships 
between environmentalists and industry, as well as other 
stakeholders. Examples include the Green Chemistry and Commerce 
Council, the American Chemical Society's Green Chemistry 
Industrial Roundtables, and even the work of my own center at 
Yale.
    Fourth, with such great news story, what is the problem? It 
is that green chemistry is still the exception to the rule. 
With all of the products and manufacturing processes that have 
been reinvented using green chemistry, there are a plethora 
that have yet to be addressed. All of the successes thus far 
represent a small fraction of the power and potential of green 
chemistry.
    Why is this? Lack of awareness in general, lack of training 
for students and practitioners, lack of funding for scientists, 
and lack of incentives for industry. In my written testimony I 
address these issues in much greater detail, but in summary, I 
would suggest that: One, there needs to be an awareness raising 
campaign such that people are aware of the benefits and future 
potential of green chemistry, scientists to do it, industry to 
pursue it, consumers to demand it.
    Two, every student and practitioner that makes molecules 
and manipulates materials needs to be trained and have a 
working proficiency in green chemistry.
    Three, there needs to be interagency coordination and 
research funding in green chemistry that is substantial and 
sustained rather than marginal and mercurial.
    Four, industry efforts toward green chemistry should be 
recognized and facilitated.
    In conclusion, the powerful tool of green chemistry is 
essential to sustaining healthy people, a healthy planet, and a 
healthy economy. It must no longer be the exception to the rule 
but must become the rule itself, simply the way things are 
done. Because in the final analysis, while this is certainly 
about our immediate prosperity, more importantly, it is about 
our posterity.
    Thank you, and I'm happy to answer any questions.
    [The prepared statement of Dr. Zimmerman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Appendix 1 can be found online at: https://pubs.rsc.org/en/
content/articlelanding/2018/gc/c8gc00482j#!divAbstract.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Appendix 2 can be found online at: https://pubs.rsc.org/en/
content/articlehtml/2019/gc/c9gc01293a.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                    
                    TESTIMONY OF ANNE KOLTON,

                   EXECUTIVE VICE PRESIDENT,

           COMMUNICATIONS, SUSTAINABILITY, AND MARKET

              OUTREACH, AMERICAN CHEMISTRY COUNCIL

    Ms. Kolton. Chairwoman Stevens, Ranking Member Baird, and 
Subcommittee Members, my name is Anne Kolton. Thank you for 
inviting me to testify and voice ACC and our members' strong 
support for the Sustainable Chemistry Research and Development 
Act of 2019. This legislation will play a key role in enabling 
technologies and tools that can help advance the sustainable 
chemistry innovations that ACC members are developing.
    ACC represents the leading companies engaged in the 
business of chemistry, a $526 billion enterprise and a key 
element of our Nation's economy. Our members apply the science 
of chemistry to make the innovative products that help improve 
people's lives.
    As we've heard, sustainable chemistry can mean different 
things to different people. In our view, sustainable chemistry 
captures two equally important concepts, first being that 
chemistry is manufactured and utilized in a responsible way 
that manages associated risks. ACC and its members have a long 
history of continuously enhancing environment, health, safety, 
and security performance through our world-class Responsible 
Care program, a requirement of ACC membership which celebrated 
its 30th anniversary in 2018.
    To further emphasize the importance of product safety and 
stewardship to ACC members, the Responsible Care Product Safety 
Code was adopted in 2012. This code emphasizes the need for 
strong cooperation between chemical manufacturers, their 
customers, and their customers' customers to promote the safe 
and sustainable management and use of chemical products.
    The second important concept of sustainable chemistry is 
that innovations in chemistry enable progress and achievement 
of a variety of sustainability goals from reductions in 
greenhouse gas emissions to hunger alleviation and improved 
quality of life. In fact, chemistry is the science behind 
sustainability. And without chemistry innovations, a 
sustainable future will be an unattainable goal.
    Harnessing this power to enable sustainability progress is 
embedded in our industry's values and central to the business 
strategy of our members. As such, our companies are investing 
more than $12 billion a year in research and development to 
help advance sustainable chemistry.
    In 2017, ACC's board of directors approved a set of 
sustainability principles to capture our members' commitment to 
safe use of chemicals and their efforts to build an innovation 
pipeline of products and technologies that contribute to 
sustainability through lower greenhouse gas emissions, 
increased energy efficiency, less water, improvements in health 
and wellness, food security, access to clean water, modern 
sanitation, and safe, comfortable shelter.
    I'd like to share just a few examples of ACC member company 
innovations: A refrigerant developed by the Chemours Company 
which can help reduce nearly 60 million tons of carbon dioxide 
emissions equivalent to taking 15 million cars off the road, 
agriculture films made from polymers developed by ExxonMobil 
Chemical can help preserve and prevent damage to crops and 
produce, reducing food waste and spoilage. And scientists at 
Covestro have developed a catalyst that can put waste carbon 
dioxide to work by converting it into flexible polyurethane 
foam for use in products like mattresses and furniture.
    As you can see, sustainable chemistry is dynamic and 
multidimensional. To define it by a single attribute or 
outcomes such as the hazard profile of a specific chemical 
could mean forgoing numerous sustainability benefits even when 
decades of scientific research have shown that chemicals can be 
used safely in a range of applications.
    At the same time, we do know that the products and 
processes of chemistry can have an impact on people and the 
planet. Through the Responsible Care program and individual 
company actions, our members are continually working to drive 
solutions to these challenges, including one of the most 
compelling issues facing us today, and that is the unmanaged 
plastic waste in the environment. Many ACC companies have 
joined with companies across the chemical and plastics value 
chain, including consumer goods manufacturers and waste 
management firms, to found the Alliance to End Plastic Waste, a 
CEO-led cross-sector nonprofit organization dedicated to 
developing and accelerating scalable solutions to help end 
plastic waste in the environment.
    Alliance members are committed to deploying $1.5 billion 
over the next 5 years to develop the systems, knowledge, and 
infrastructure needed to reduce, recycle, reuse, recover, and 
repurpose plastic waste. I've highlighted some of these 
initiatives in my written testimony.
    I'd like to thank you for your time and the opportunity to 
share ACC's views and commitment to sustainable chemistry. We 
look forward to serving as a resource for this Committee and 
others as this important sustainable chemistry legislation 
moves ahead. I'd be happy to take questions.
    [The prepared statement of Ms. Kolton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 TESTIMONY OF MITCHELL TOOMEY, DIRECTOR OF SUSTAINABILITY, BASF 
                        IN NORTH AMERICA

    Mr. Toomey. Good morning, Chairwoman Stevens, Ranking 
Member Baird, and Members of the Research and Technology 
Subcommittee. Thank you for inviting me to testify this morning 
about BASF's views on sustainable chemistry and the Sustainable 
Chemistry Research and Development Act of 2019.
    BASF corporation is headquartered in Florham Park, New 
Jersey. This is the North America affiliate of the German 
global company BASF. In the United States, we have 16,000 
employees working at more than 100 sites across 30 States, 
including Michigan, New Jersey, New York, Illinois, Tennessee, 
Ohio, California, among others.
    As the leading chemical company worldwide, BASF supplies 
ingredients and solution that house, feed, drive, and care for 
the world. At BASF we understand the challenges for a more 
livable, sustainable future. Toward 2050, several megatrends 
are seen on the horizon: Projected population growth to 10 
billion people around the world, a doubling of per capita 
income, and close to 70 percent urbanization and with more than 
1 billion people moving toward cities.
    We provide chemistry solutions to customers across a broad 
range of industries to start to tackle some of these 
megatrends, including the materials for batteries for electric 
vehicles, lowering the impact of agricultural solutions on the 
environment, insulating homes and businesses to use less 
energy, and to increase resilience to natural disasters.
    Perhaps the most important thing we are doing can be 
explained through our sustainable solutions steering 
methodology. Since 2013, BASF has been using its own method for 
ensuring that we produce sustainable chemistry. We assess the 
economic, environmental, and social impacts of a product and 
its application in various markets and industries. Products are 
categorized into sustainability accelerators, performers, and 
challenge products. We've conducted these sustainability 
assessments on almost all of our relevant portfolio of 60,000 
products, which account for about $63 billion in sales. My 
written statement includes some examples of these accelerator 
products.
    Around half of our total annual R&D spending goes toward 
developing low-carbon-emitting products and optimizing our 
processes. In 2018, the use of BASF products by our customers 
prevented 640 million metric tons of CO<INF>2</INF> emissions. 
We ourselves recently announced our target of CO<INF>2</INF> 
neutral growth into 2030 for BASF.
    BASF has more than 11,000 employees involved in research 
and development in 2018. We once again ranked among the leading 
companies in the patent asset index, a method that compares 
patent portfolios industrywide. Due to the growing demands of 
our customers for sustainability, more and more of our 
innovation initiatives focus on sustainability gains.
    BASF proudly supports the Sustainable Chemistry Research 
and Development Act, H.R. 2051. We are encouraged by the 
increasing support for this legislation that seeks to 
coordinate Federal activity, including research, development, 
demonstration, commercialization, education, and training 
efforts in sustainable chemistry.
    At BASF we see global market and regulatory drivers for the 
development and use of more sustainable chemistry throughout 
the value chain, the challenges companies face finding suitable 
sustainable alternatives and the role of innovation in 
addressing this challenge. By better coordinating and focusing 
existing relevant Federal R&D, H.R. 2051 can help guide 
researchers, especially in academia and smaller companies, to 
focus their development activities on sustainable chemistry and 
generate the innovation that is needed to bring these 
chemistries to market faster.
    Thank you again for inviting me to talk about BASF's views 
on sustainable chemistry and the reasons for our support of 
this Act. I'd be glad to answer any questions you may have 
regarding my testimony. Thank you.
    [The prepared statement of Mr. Toomey follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Well, thank you so much to our expert 
witnesses. And at this point we're going to begin our first 
round of questions. And the Chair is going to recognize herself 
for 5 minutes.
    Dr. Persons, one of the primary findings in the 2018 GAO 
assessment of sustainable chemistry is this lack of 
coordination across the Federal Government and its hindrance of 
the development and use of more sustainable chemical products 
and processes. Why is this the case, and what's the best 
approach to coordinating activities and programs across Federal 
agencies?
    Dr. Persons. Thank you, Madam Chairwoman. When we did our 
study, coordination did come out, as you say, and I think GAO 
sees this in much of its work, which is that coordination is 
easy to say but often hard to do. And the issue has to do with 
the incentives on issues. It's almost always in our experience 
unintended. I think in this particular case, it's like putting 
a mosaic picture together except not everyone knows exactly how 
the picture is supposed to work out and they're putting their 
pieces in while leaving a large amount of gaps there.
    As you and Chairwoman Johnson mentioned, the idea of 
leadership is a key issue that came out of our stakeholders in 
that report. And then as we see where we sit looking across all 
of the Federal Government on coordination issues, that's 
particularly the case.
    Chairwoman Stevens. And do any of our other panelists have 
comments on that or they wish to chime in about their 
experiences within the Federal Government and lack of 
coordination? Just wanted to give you a chance. Otherwise, I'll 
continue.
    A major challenge identified, Dr. Persons, in the 2018 GAO 
assessment was the lack of consensus regarding the 
environmental and health factors, most important in assessing 
sustainability. And I'd like all of you to chime in, as I have 
the time. Would you assign a single factor, whether it's 
toxicity, greenhouse gas emissions, energy use, or 
recyclability as the single most important measure of 
sustainability? And if not, how do you go about prioritizing 
the factors here?
    Dr. Persons. Yes, thank you for the question, Madam 
Chairwoman. As our Technology Assessment of 2018 reported, we 
did a survey with a series of A-B choices to various 
stakeholders asking, would you prioritize energy or water use 
or this or that. The top choice in our report, as one of the 
graphics shows, is toxicity. That is the reduction of toxicity 
was the number one concern of the stakeholders.
    With that said, I think as Drs. Warner and Zimmerman have 
spoken well about the green chemistry idea, about how do you 
think about things in terms of what the technology is and what 
it does, that larger framework is still absent. That's the key 
thing. You can be necessary and do everything right in green 
chemistry, and it's still not sufficient to do the full 
sustainability cycle that we pointed out in our report. Thank 
you.
    Dr. Warner. It's an important issue because I think if you 
ask 10 people what should be the number one priority, you'll 
get 10 answers. And if you say, OK, then let's do all 10 of 
them, then someone's going to want an 11th. And then someone's 
going to want 50 and then someone--and if we approach it by 
trying to achieve infinity, we can't do it. So who among us 
decides where do we draw the line? Unfortunately, that is 
critical, and it's a hard thing to do and it's going to leave, 
you know, some people disappointed.
    But if an organization wants to do the right thing and we 
give them as a task infinity, that can't be done. So how do we 
decide what are the endpoints that we should be focusing on? 
How do we measure them, and how do we promote them? And that is 
something we really need to take some serious time thinking 
about. It's a very difficult task, but I think it's a very 
critical one.
    Chairwoman Stevens. And building the consensus among 
industry.
    Dr. Warner. Yes. Absolutely. Yes.
    Dr. Zimmerman. So I think this is a really important point 
to include this development of criteria as a goal of this bill 
is to bring together this group that would form these consensus 
standards. I think the word hazard has a really broad 
definition beyond toxicity. This includes things that might 
explode or react. Greenhouse gas emissions come under something 
that might be hazardous.
    These criteria are so important, as we heard earlier, in 
the executive order for environmentally preferential 
purchasing. If we have criteria in place, we can start to drive 
the market. It will also help with marketing claims and how 
people are able to make these claims out in the marketplace.
    And as John mentioned, I think there is this idea of we 
need a goal out there, and it's OK to drive toward continuous 
improvement. We don't have to have success immediately on 
everything, but we can hold that out as a true north of the 
direction we're all working toward. And as long as we're moving 
in that direction, we can claim that as a success and a win.
    Ms. Kolton. First, I'd say I think you hear there does need 
to be some element of flexibility in defining sustainable 
chemistry and for any criteria that are applied to it. I think 
we at ACC would of course advocate for a lifecycle approach 
where you are looking at the effects of chemistry across--and 
benefits across its lifecycle from production to end of use.
    I think we would also support a system where there was 
flexibility to look at the priorities in a particular geography 
or application. So, for example, in some parts of our country 
water scarcity is more of an issue than in others, and so water 
efficiency might be a more important priority or criteria than 
in some areas. So as long as risks are managed and managed 
well, I think we would want to have some flexibility to look at 
the application and how it can benefit different areas, 
different geographies, and different applications.
    Mr. Toomey. I think we are acting in a marketplace where 
this is a very real issue. There are demands from different 
industries for different priorities. And I think as a 
commercial actor, we need to be ready to not wait for some 
definition of what's most important but to respond immediately 
to those market signals.
    What we try to do is look at the overall value to society 
of a specific intervention. You know, if you look at the net 
costs and the net benefits, you can start to create a decision 
matrix that makes sense in a business context. It's impossible 
to have a perfect balance, but I think for each application you 
have to make sure that you're taking all those characteristics 
into account and not just focusing on the potential hazards but 
looking at those exponential benefits that could be provided by 
the application of the technology.
    Chairwoman Stevens. And with that, I'm out of time, and I 
will yield to my counterpart, Dr. Baird, for 5 minutes of 
questioning.
    Mr. Baird. Thank you, Madam Chair.
    Dr. Persons, on the definition and so on of sustainable 
chemistry, could you elaborate on what the GAO found in terms 
of a common understanding of the definition of sustainable 
chemistry and how that overlaps with green chemistry? And then 
if you're successful with that, did you find a common Federal 
definition would be helpful?
    Dr. Persons. Yes, sir. Thank you for the question. The 
report did not identify a definitive definition of sustainable 
chemistry. That was in one sense the key finding that there 
isn't that common understanding yet, but there were instead 
themes, some of which I mentioned in my opening remarks: 
Improving efficient use of resources, managing energy and 
water, and also as you have heard some of our other panelists 
say, the reduction in toxicity or hazardous substances, so all 
of these elements.
    And then how do we do come up with chemical transformations 
perhaps with more Earth-abundant metals in catalysts versus 
rare or nonrenewable-type resources. So the idea about 
emphasizing and using nonrenewable resources is critical. And 
again, trying to do this all in a lifecycle context, about how 
to build and have at least a sufficient yet flexible 
understanding of sustainability and yet still a clear enough 
framework around what is there.
    Currently, Federal agencies are doing various programs and 
elements with respect to green chemistry and so on, but it just 
lacks that overarching coordination and framework to help drive 
that.
    In terms of the green chemistry versus sustainability, sir, 
I think Dr. Warner spoke well about the idea about green 
chemistry in terms of what the technology is versus what it 
does, and I think that's the variance. Green chemistry is a key 
concept within the umbrella of sustainable chemistry. And so 
winning there is necessary, as Dr. Zimmerman said, but not 
sufficient; we will want to still think about things in this 
sustainability framework that heretofore has not existed.
    Mr. Baird. Thank you. Ms. Kolton, I understand that you're 
leading the development of the first-ever chemical industry 
sustainability metrics which will measure and report the U.S. 
chemical industry's sustainability performance. Can you tell us 
why ACC is undertaking this effort and how it will help 
industry?
    Ms. Kolton. Certainly. As I mentioned in my testimony, in 
2017 ACC adopted industrywide sustainability principles. And 
based on those principles, we are in the process of developing 
metrics to assess progress, encourage process changes, process 
advancements and enhancements. We think that this will help 
express our industry's commitment to sustainability, as well as 
encourage sustainability progress across industries and in our 
customers and their customers as well.
    Mr. Baird. Thank you. And I have about a minute and a half 
left, and so, again, Ms. Kolton, would you and Mr. Toomey 
both--you're going to have about 75 seconds anyway. What role 
should the National Institute of Standards and Technology 
(NIST) play in supporting industry development of sustainable 
chemistry? And then the second part of that, should NIST be 
working with the industry on voluntary standards?
    Mr. Toomey. Thank you. Quite simply, I think that there's a 
need for a comprehensive framework to house this discussion. I 
think we're all coming at it from different points of view. If 
we can establish a clear language that--to talk about these 
emerging sciences together, that in itself would be the most 
valuable output of this.
    As for the measures, I don't have a position on that.
    Ms. Kolton. I would say that there's a role for 
organizations like NIST and many others in this process. I 
think the principle of stakeholder input, of gathering the 
perspectives and expertise from a variety of inputs is going to 
be very important. So certainly we would support the engagement 
of NIST and others as part of this process.
    Mr. Baird. Thank you. I wish I had more time because I have 
a question for the other two, but anyway, I'm out of time, and 
I yield back. Thank you.
    Mr. Tonko [presiding]. The gentleman yields back. I now 
recognize myself for 5 minutes as I sub here for Chairwoman 
Stevens. And I thank her and Representative Baird, that Ranking 
Member, for hosting what I think is a very important hearing. 
And thank you also to our witnesses for joining us today to 
discuss sustainable chemistry, the future of green innovation.
    Sustainable chemistry responds to the American people's 
demands for products made with respect for the health of our 
environment, our natural resources, and our families. We have 
an opportunity and I would say a responsibility as 
representatives of the people to foster growth in the field of 
sustainable chemistry, not only to protect our environment and 
public health but also to establish the United States as a 
global leader in sustainable manufacturing and family and 
community-safe consumer products.
    In the 114th Congress, I was intimately involved with 
negotiations surrounding the Toxic Substance Control Act. While 
I support many of the positive steps taken by the most recent 
chemical protections, we have much more to do to ensure 
Americans' public health and our environment are protected from 
hazardous chemicals. Supporting the research and development 
efforts of sustainable chemists will have a direct positive 
impact on nearly every facet of American industry. The 
innovation we will need to tackle America's greatest 
challenges, whether from toxic water and air or the growing 
climate crisis, starts at the molecular level with sustainable 
chemistry solutions.
    Through partnerships between State agencies and local 
universities and high school teachers, New York's Capital 
Region has established itself as a leader in sustainable 
chemistry education, research, and development. Our State is 
inspiring a new generation of sustainable chemists through 
courses of study that only deepen students' understanding of 
the subject but also provide them with a broader awareness of 
how their actions impact our environment.
    Manufacturers throughout our region have also taken actions 
to reduce their environmental impact in all stages of 
production from chemical research to waste reduction. And I 
strongly support our Chair's decision to focus today's hearing 
on research and funding to allow for advances in sustainable 
chemistry. These advances will stimulate the American economy, 
protect our health, and preserve the environment for 
generations to come.
    And so for all of our witnesses, my question is what are 
some examples of green or sustainable chemistry, chemistry 
innovation that can help us understand the future that green 
chemistry can offer? Anyone want to take the first stab there? 
Dr. Warner?
    Dr. Warner. Yes, thank you. Thank you very much for giving 
me the opportunity. You know, one example that comes to mind is 
we've recently commercialized the technology to--when we 
recycle asphalt pavement, when we repave a road, most of the 
previous asphalt goes to a landfill and can't be reused because 
the sun and the air oxidize it. A company has invented a 
technology to allow the complete reuse of the old asphalt so 
that instead of using virgin materials, you essentially can 
replace the road with the same materials and repave it so 
therefore reducing the energy used and the materials used. That 
is a company called Collaborative Aggregates. It has sales 
forces across the country. That is an example of a green 
chemistry sustainability technology that quickly gets adopted 
into the marketplace.
    Mr. Tonko. Thank you so much. Any other examples? Dr. 
Zimmerman?
    Dr. Zimmerman. Yes, I would say that there are lots of one-
off examples. I think the bigger issue around green chemistry 
has been that it is not systematic. And we know that the 
breadth of the applications and the success of green chemistry 
really goes across the chemical enterprise. And so I think 
really important to this is we can all name, I'm sure, examples 
within our own experience and our own companies of where we've 
demonstrated success. I think the idea is that this needs to be 
much more systematic and the way things are done rather than 
the exceptions and the small stories that we're able to tell.
    Mr. Tonko. Awesome. And, Ms. Kolton?
    Ms. Kolton. Certainly. I had several examples in my opening 
statement, but I did want to mention one process that is a 
focus of significant research within the chemical industry, and 
that's chemical recycling. And this is the opportunity to take 
used plastics and other plastic-based products back to their 
monomers and create entirely new products from them. This has 
the opportunity and the potential to be transformational, but 
it is a process that requires additional research, development, 
and refinement. But that is a good example of a large-scale 
potential technology development that could truly change our 
society and relies on the principles of sustainability, as well 
as supporting overall sustainability progress.
    Mr. Tonko. Thank you. Mr. Toomey?
    Mr. Toomey. Simply to reinforce that, we are seeing an 
enormous demand for recycled content in food applications and 
other areas where you can't currently use recycled content. 
This will require some legislation to define exactly how you do 
that but also technology innovation. One example is in the 
automotive industry. We've seen a lightweighting revolution of 
taking--using more and more plastic parts within the cars. Now, 
the automakers are asking us can you actually make that plastic 
part from recycled content? And so that will require 
sustainable chemistry.
    Mr. Tonko. Thank you so much. That concludes my 5 minutes, 
so the Chair recognizes Representative Balderson for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman. And thank you, 
panel, for being here today and taking the time out.
    My first question is for the full panel. Currently, the 
National Science Foundation supports innovative research in 
chemical sciences integrated with education through 
investments, and developing a globally engaged America 
chemistry workforce. Could you each weigh in on what mode the 
NSF and other Federal agencies could be doing to develop a 
workforce with the skills to fill the industry jobs?
    And, Dr. Persons, you may lead off.
    Dr. Persons. Yes. Thank you, sir, for the question, and 
I'll just say briefly that NSF has centers for chemical 
innovation, as you mentioned. There is one, for example, at the 
University of Minnesota on sustainable polymers. And so a lot 
of it is learning by doing and putting that framework around. 
But, again, in the absence of that framework, there's still 
pieces of mosaic that NSF and others are laying in without 
seeing the full picture. And so there are elements of training 
in this regard toward green chemistry and sustainability, but 
again, nothing in a holistic or systematic manner yet.
    Dr. Warner. Thank you. Einstein had a quote, ``No problem 
can be solved at the level of awareness that created it.'' I 
think the chemical enterprise needs to reinvent itself. We need 
to bring new eyes, new ideas into the chemical sciences. The 
NSF has an opportunity to focus on that, to bring in not just 
the traditional, you know, acceleration of that which already 
exists. But when you look at the principles of green chemistry, 
it actually catalyzes a creative different way of looking at 
things and so has the opportunity to not just accelerate that 
which we're doing but expand the bottom, the foundation of what 
we're doing and what chemical sciences can do to contribute to 
the economy.
    And so if we--yes, we need to take the traditional chemical 
sciences and accelerate green chemistry now, but we also have 
to look at this as an opportunity to broaden what it means to 
be a chemist, what it means to be an inventor, and to bring 
along into that society new eyes and new ideas.
    Dr. Zimmerman. So I think the NSF has a broad opportunity 
across many of their programs from supporting development of 
new curricular materials, informal science education, this is a 
great opportunity to go into museums and libraries and have 
conversations with the public, so broadening what we think 
about as education. And then, you know, you could really push 
the field by tying grant funding from the NSF to demonstrating 
that your curriculum has changed, has evolved, and is aligned 
with these principles of green chemistry in terms of what is 
the department level or school level doing. So that would be a 
criteria in actually receiving grants from the National Science 
Foundation.
    And just one other point, I'm going to build on what Dr. 
Warner said. We have done some research to show that when you 
teach green chemistry and green engineering in the curriculum, 
you recruit and retain women and underrepresented minorities in 
STEM (science, technology, engineering, and mathematics) 
disciplines that would not be there otherwise because of the 
compelling nature of this work.
    Ms. Kolton. So while I can't speak to exactly the role that 
NSF should have versus others, I do think that this is a 
critical issue for industry and for government, and it's going 
to require the investment and the commitment of both the public 
and private sectors.
    Yesterday, there was a story in the media about the skills 
gap in science and technology could cost the economy over $1 
trillion, so this is a critical issue. I think we have an 
opportunity, as Dr. Warner said, to sort of recast chemistry 
and really emphasize the role it will play in a sustainable 
future that's more appealing perhaps to younger students, 
people of a different generation, and giving them the 
opportunity to be part of an enterprise that does advance us to 
a more sustainable future. Programs committed to attracting 
underrepresented groups to STEM education and industries like 
the chemical industry are very important, and our members are 
very committed to those and active around the country and 
around the world in trying to attract new industry members, 
students and otherwise, to help us achieve these goals.
    Mr. Balderson. Thank you. Mr. Toomey?
    Mr. Toomey. We would--as a company would be delighted to 
see more collaboration with NSF specifically in what you might 
call applied sustainability. We have questions coming from 
customers' real-world demands that are problem statements that 
we're trying to tackle but would also, I think, stimulate the 
interest of university students and others to engage further. I 
think sometimes you have to have a practical challenge in front 
of you, especially in a fairly nebulous ill-defined topic as we 
are entering into sustainability. We have challenges. We'd love 
to see those challenges proliferate through the academic 
community, and the NSF could be a great partner in such 
affairs. Thank you.
    Mr. Balderson. Thank you all. Mr. Chairman, I yield back.
    Chairwoman Stevens [presiding]. The Chair will now 
recognize Dr. Marshall for 5 minutes of questioning.
    Mr. Marshall. Thank you, Madam Chairwoman. Welcome, 
everybody. I want to talk about biofuels, conservation, and 
innovation for a second. So I'm a biochemistry major, obviously 
went on to medical school, and certainly have seen these 
incredible things happen since my first memorizing that atomic 
chart back in 10th grade as well.
    Maybe we'll talk about biofuels. Anybody experience with 
any of the biofuels, what is happening at the basic science 
level, what is happening at the innovation level? Mr. Toomey, 
you want to share anything, what you got cooking?
    Mr. Toomey. Well, we've always been excited to find new--
what we call feedstocks, so we've got fossil fuels. There are 
other things that you can use to start the chemical process. 
Biofuels, biocomponents are a great source of that. In fact, 
the recently passed farm bill, there was some very important 
language about defining how do you account for the bio elements 
within your feedstocks? And that's been transformational in 
allowing us to show biobased plastics. So I think that the 
feedstock, using it not only as a fuel for mobility but 
actually as the source for plastics is an incredibly exciting 
future.
    Mr. Marshall. Yes, I was down in Florida and they were 
taking sugarcane and turning it into plates and biodegradable 
cups and stuff like that, a great future for it.
    Dr. Warner, did you have something you wanted to share?
    Dr. Warner. Yes, it's an interesting issue when we look at 
the bioeconomy and trying to make traditional materials from 
biofuel sources. The 270 years of modern chemistry we've been 
doing chemistry trying to make things easy to purify at the 
end, easy to extract, to scale up. Bioprocesses essentially 
make that really hard, that bio milieu if you will, we haven't 
really invented enough technologies to efficiently and cost-
effectively pull them out. And that's one of the big research 
barriers right now is the cost-effective way to scale up the 
final purification of those materials. So from a technical gap, 
that's where the technical gap actually lies.
    Mr. Marshall. OK. Dr. Zimmerman? I read body language 
pretty good.
    Dr. Zimmerman. I do a lot of research in my own laboratory 
on this question. I think the other big issue with biobased 
feedstocks is, you know, the petroleum industry is really good 
at getting a barrel of crude oil out of the ground and using 
every single fraction of that.
    Mr. Marshall. They do.
    Dr. Zimmerman. We are not as good when we take a bio 
feedstock. We're seeing this much goes to fuel and the rest 
isn't waste; what do we do with it? And I think the other big 
chemical challenge is being able to harness value out of every 
fraction of that biomass just like a petroleum refinery would. 
We call it the integrated biorefinery. And that changes the 
economics of the system where sometimes those really low-volume 
but high-value fractions actually drive the economics, and your 
fuel becomes a waste product out of going after these other 
compounds.
    The other thing biobased and biofuels offer is new 
chemistry, things that we can't do from petroleum feedstocks. 
We have new starting materials, and we can make new things, new 
performance that we're not able to get out of the petroleum 
economy. So I think it's not just replacing what's there but 
actually creating and innovating a new opportunity.
    Mr. Marshall. Right. I think another great example I can 
think of is when ethanol first kind of hit the market 20 or 30 
years ago, the cattle feeders were, oh, my gosh, this is going 
to drive the cost of corn up. Well, the next thing you know, a 
byproduct, dried distillers grain, has a huge high protein 
content, and what was once a waste product, we now export it 
across the world and we feed it to our cattle and again, every 
month it seems like there's something new and improved coming 
out in that industry. Now they're using sorghum, which uses 
less water to grow in place of corn and able to use those 
interchangeably. And now we haven't even started about the 
biodiesels.
    So let's maybe talk about conservation and innovation that 
since 2003, the carbon gas output of this country is a nice 
steady trend downward and I am curious what you all see the 
future looks like, what conservation projects you think might 
be, and you probably may be more in the lines of innovation as 
I look at this crowd and your industry. What do you see for the 
future of innovation? I happen to believe that innovation can 
do more to drive the carbon footprint down than any law that I 
can write up here, so prove me right.
    Ms. Kolton. You know, I would say from the chemical 
industry standpoint there's a tremendous incentive to always 
look for new efficiencies and new processes and technologies 
that can help drive down emissions, whether it be of carbon or 
other potential air pollutants. We, as an industry, have made 
significant progress since we started measuring carbon 
emissions in 1990 through the Responsible Care program, which I 
mentioned earlier, and commit--and are committed to continuing 
that progress in the future.
    Mr. Marshall. Anybody else on innovation? Dr. Persons, go 
ahead.
    Dr. Persons. Yes, sir. Yes, sir, thank you. I just want to 
mention one example. When we looked at technologies across 
catalysts, solvents, and continuous processing in our 2018 
report, one of the things that came out in the catalyst 
category--this relates to Mr. Tonko's question earlier--was 
that a company called Newlight Technologies won a 2016 
Presidential Green Chemistry Challenge Award for developing and 
commercializing a biocatalyst that captures methane and 
combining it with air to create a material that matched the 
performance of petroleum-based materials. So there was a way to 
reduce a very intensive greenhouse gas, put it into everyday 
products like packaging and cell phone cases, furniture, and a 
range of other things. And based upon what we heard our 
stakeholders say and I think you're hearing here that we're 
sort of scratching the surface on some of these things that 
could be a win-win in that regard.
    Mr. Marshall. Thanks. Chairwoman, am I the last questioner 
or have you got anybody else?
    Chairwoman Stevens. You are, but we're going to do another 
round.
    Mr. Marshall. OK. I yield back. Thank you.
    Chairwoman Stevens. We're going to start a second round of 
questioning in part because I didn't even get all my questions 
in in the first 5 minutes, and this is such a fascinating 
topic.
    You know, we go back to the original charter here and the 
12 Principles, one of which is on the safety standards, as well 
as the role that our agencies provide in codifying those 
standards, I think about the Environmental Protection Agency 
and, you know, we're talking about the hazardous claim and what 
chemicals fall under that and how it's governed.
    And I was just wondering if maybe a handful of you could 
shed some light in terms of the regulation from the EPA and if 
it's seen as cumbersome or welcome, if it's a guiding force, 
and maybe if there are some improvements that we can make to 
that EPA regulatory process, we'd love to hear it.
    Dr. Persons. Thank you, Madam Chairwoman. In our tech 
assessment, there were several EPA programs, some of which were 
prize-oriented and others were basic research and doing 
toxicology. As you know, we've done other work on TSCA (Toxic 
Substances Control Act), as Mr. Tonko mentioned, and the IRIS 
(Integrated Risk Information System) program just to collect 
toxic substances in a database, which we recently had on our 
high-risk list because of the challenges there. So there's more 
research and development for EPA to do in its own way in terms 
of managing or understanding environmental risks, not only in 
the toxic spaces but as you open the aperture so to speak into 
more green chemistry, as Drs. Warner and Zimmerman have been 
discussing, and then again as you open it even more in terms of 
sustainability to be able to build those metrics and do that 
research and compile the data if you will over a long period of 
time.
    Mr. Toomey. Thank you. We--one program we'd highlight is 
the EPA Safer Choice program, which is a voluntary program to 
get EPA imprimatur on products that have improved hazard 
characteristics. And I think that that can go even further by 
doing a little bit more scientific lifecycle analysis and 
calling for that. But we really find that to be a great program 
underway.
    Dr. Zimmerman. So I did--I want to make one point--it's 
really important is that green chemistry has never been about 
regulation, and there's actually not a regulatory framework 
that goes along with the idea of green chemistry. I think the 
reason there is such broad consensus on this topic is because 
it's about innovation, it's about aligning environmental and 
economic goals. And I think we should be mindful of bringing 
regulatory----
    Chairwoman Stevens. So we can do innovation as we regulate? 
That's great. Keep going if you want to. I love what you're 
saying.
    Dr. Zimmerman. So I think we need to lead with an 
innovation agenda if we're going to talk about these topics of 
green and sustainable chemistry.
    I think the other interesting thing to point out is this 
regulation around collecting this tox data, the toxicity data 
is--especially around green chemistry is being able to use that 
information to drive design and innovation of new chemicals and 
new molecules so we're not just regulating for the sake of, 
should this be good or bad but how do we use that knowledge to 
actually design a future that's better than the one we have 
today?
    Dr. Warner. That's a really important part. So, right now, 
you'd be amazed that your average Ph.D. graduating from a 
university in chemistry is probably completely unaware of the 
regulatory frameworks. It does not drive innovation. There is a 
disconnect for what--you know, so you don't have a class at 
universities on chemical regulations. You graduate, you get a 
job, and then you find out when you're on the job about the 
real world. If we could have this be part of the intellectual 
process both becoming a chemist, it has the potential to change 
everything. And that's what we really need to do is we need to 
create a conduit. Every time we learn about some mechanism that 
causes some harm, if that does not make it to an inventor's 
laboratory, then what's the point? We need to invent the better 
things, and we need to see that the most critical element is to 
take the knowledge of the bad and make it a design principle of 
the future technology. And right now, those connections are not 
made.
    Ms. Kolton. Certainly I just would like to mention that the 
2016 update to TSCA that's being implemented right now was 
really designed with innovation in mind and certainly trying 
not to be a hindrance to innovation. We were very supportive of 
that legislation. We worked closely with NGOs and with Members 
of Congress from both sides of the aisle. It was signed into 
law by President Obama. And going through the process of 
prioritizing chemistries for review, which is underway right 
now, and looking again at utilizing modern approaches to 
chemical assessment and chemical regulation and protection of 
confidential business information at the same time really is 
designed to help encourage innovation without stifling it.
    Chairwoman Stevens. Wonderful. I'm out of time. I have more 
questions. OK. I'm going to yield back my time and recognize--
did you want to do 5--OK. And I'm going to recognize Dr. Baird 
for 5 minutes of questioning.
    Mr. Baird. Thank you, Madam Chair. I appreciate that.
    You know, I'm amazed at the talents and skills that you 
have. And I'm sure that, as you thought about this meeting and 
being a witness, that you had things you thought we ought to 
know. So I'm going to give each one of you that opportunity to 
tell us the one or two things that you think on this 
Committee--because we have oversight on a lot of the science 
and research and basic research, and that's not an easy task. 
So I'd just like to give each one of you, if you want to, a 
couple things that you think you'd like for this Committee to 
know.
    Dr. Persons. Thank you, Ranking Member Baird. I just want 
to touch on something you said in your opening remarks. It 
really does constitute, as you're hearing I think from the 
panelists here, it's a tremendous opportunity for the United 
States in innovation and competitiveness. I think the last 
discussion about it's not regulations versus innovation; it's 
how innovation can symbiotically interact with things. And it 
does require a key element of leadership, not the Federal 
Government in and of itself but the convening power of the 
Federal Government to try and do this. And I think it goes 
significantly to the future of U.S. competitiveness, the 
manufacturing sector in general, the way we do research, again, 
thinking in this lifecycle context where that's been largely 
absent is the key opportunity. And if any country in the world 
can do this, it's the United States with the collective 
resources that we have. Thank you.
    Dr. Warner. Thank you. I have two points. The first one is 
about education. I think that if a young child dreams to be a 
musician, they understand that they're going to have to 
practice, practice, practice, and it takes a pathway to become 
a musician. If a child wants to be an athlete, they know that 
the first time they throw a ball it's not going to work well 
and they've got to practice, practice, practice.
    But is there a model of what it means to be an inventor? Is 
there a model of what it means to be an innovator? Does a young 
child see that path, and what opportunities are we losing 
because we're not illustrating that path?
    And if the crisis of sustainability lies in the domain of 
invention, we need more inventors. And we need to really be 
introspective. Does our educational system in K-12 and in 
university actually foster the concept of innovation and 
invention or--and that's just something we really need to take 
a deeper look at.
    And the second point is just to reiterate the field of 
toxicology, the field of environmental health sciences is 
burgeoning with information. Every day there's new results 
happening. There is no conduit to the inventor's lab table. We 
need to find policy with whatever ways to help facilitate that 
invention. If smart people that want to invent things have the 
tools to invent, they will invent.
    Dr. Zimmerman. I have two points also. I think one is this 
is a great space for public-private partnerships. There's a lot 
of opportunity here where there are a lot of innovations and 
discoveries that are in academic labs, in national labs, or in 
startups that don't have the capital or the expertise to go 
through that pipeline and get those at scale in the market and 
commercialized.
    There are some really good examples of this in other 
countries, including GreenCentre Canada where they have set up 
a similar idea of bringing technologies in. It's a self-
supporting entity on the royalties and licensing agreements of 
those technologies that come out the other end go back into 
support for the research and development.
    And speaking of the national labs, it's a great place for 
us to go look, so that's research that is being mandated and 
can be directed, and there are a lot of innovations and patents 
that are sitting on the shelf at the national labs that should 
be in a database that's searchable that other people in 
academia and small businesses can build on to advance green 
chemistry.
    Ms. Kolton. I would just reiterate the importance of that 
collaboration between the public and private sectors. I think 
there--through that collaboration we can make significant 
strides and new innovations but also in idea incubation, 
commercialization, and otherwise and legislation like that 
which we were talking about today. There's another piece of 
legislation called the Clean Industrial Technologies Act that's 
being introduced today as well that's looking more at processes 
and how to make more sustainable processes available and refine 
them for the industrial sector. These kinds of initiatives by 
the government I think are the kind of opportunities where you 
allow the private sector to do what they do best, and you allow 
the government and the public sector to do what they do best.
    Mr. Toomey. And, very briefly, I think it's just important 
to reiterate how much demand we're seeing in the marketplace 
for these solutions. The market is correcting toward a 
sustainable economy, and I think that we are actively pursuing 
that. And if we can do anything as companies, perhaps it would 
be to bring you the evidence. And especially we as a business-
to-business company across so many different sectors, we're 
seeing this articulated in every industry. And so I think that 
there is a maturing process going on within the marketplace 
that needs some knowledge-sharing and some access to new 
patents and ideas, but it is active and happening, and we'd be 
delighted to be able to help increase the kind of knowledge 
base of this committee.
    Mr. Baird. Thank you.
    Chairwoman Stevens. So the United States often feels like 
it's in this big global competition because we are. And the 
squirm is China's out-investing us. They're out-investing us in 
R&D. They're, you know, outpacing us on applications for 
artificial intelligence. And we look at the spends, we look at 
our budget, we play a role as the Science Committee in the R&D 
investment conversation, although we're not appropriators, as 
our Chair likes to say. We're authorizers. And we're all, by 
and large, fans of the investment in basic research to spur the 
innovations and to help set the table.
    So the takeaway from the conversation around public-private 
partnerships and where industry and academia tie into the table 
setting that the Federal Government offers is an imperative. 
And it's obviously essential to our success. And it's the 
American best practice that we afford here.
    I'm going to give Mr. Toomey a warning because I think I've 
got some questions for the record coming to you. But we're 
delighted to have had BASF here today and in particular coming 
from southeastern Michigan where you employ nearly 100 people 
in my district from Wixom to Livonia, Michigan. And as the home 
of our Nation's automotive capital, I'll just say your role in 
terms of helping us meet our sustainable chemistry goals and 
your dedication to best practices and your leadership as a 
corporate steward have really meant a lot to us. And so we look 
forward to following up with you on some additional technical 
questions.
    And that's in part why we were gnawing at this notion of 
regulation because there are nuances and there are complexities 
and a toughness to it, but it doesn't impede what we're 
ultimately doing with sustainable chemistry, which is 
propelling the innovations of the future.
    We recently had a hearing here on the Research and Tech 
Subcommittee on recycling technologies and started to dig at 
plastics. And certainly we're dismayed to find out that we 
really haven't been studying some of the toxicological effects 
to plastics but also recognizing that there is great 
opportunity here with reuse, that we don't have to make the 
hysteria of the plastics paradox the failure of what we can do 
to achieve sustainability goals.
    So, Ms. Kolton, we'd really like to recognize you and the 
work that you're doing with the Alliance and would like to 
continue to invite you to chime in and be a part of the 
discussions and the solutions that we'd like to catalyze here 
in the United States around recycling technologies for plastics 
and single use.
    Everything that you all touch and do is responsible for the 
might of not only our economic success but our health success 
and frankly the outcomes for national security as well. So we 
thank you for that.
    And I will also recognize Dr. Zimmerman for her dedication 
to definitions. As somebody who was doing the taxonomy around 
the future of work in the digital age of manufacturing, 
codifying the job roles specific to the changing nature of 
advanced manufacturing, utilizing a taxonomy, we know how 
important definitions are and how important they are to our 
scientists.
    So I'm sure Dr. Warner and your center and just your great 
success, you know, utilizes some of that. And we'll take your 
recommendation, by the way, to continue to encourage academia 
to instruct around the regulations.
    It's always such a surprising thing. You graduate college, 
you spend 4 years steeped in a degree program, maybe you go on, 
and then you emerge and you realize, oh, there's a whole bunch 
of other things I didn't learn. And so the charge, too, to how 
we continue to spur and create a nation of innovators, our 
plight in the post-9/11 era, frankly what emerged this country 
out of 9/11, which was this incredible ability to innovate and 
proliferate the internet and propagate the iPhone, by the way, 
using those rare-Earth minerals that we want to continue to 
have access to.
    So as this country finds itself in the middle of a trade 
war, we might say that we want to go into trade wars 
strategically with our allies and the alliances that help us be 
successful. We're just so grateful for your leadership.
    And thank you, Dr. Persons, for your incredible portfolio 
of work. We know it's not easy to work at the GAO. We in 
Congress love the GAO because we're going to cite your studies 
and we get your charts. Now, when you're on the agency side 
like Ms. Kolton and I were, oh, a GAO study is coming up, how 
do we make sure we really get our points in there? But keep 
going with everything you're up to. We're certainly thanking 
all of you.
    The record is going to be open for an additional 2 weeks 
here. And statements from Members or additional questions, as I 
already alluded to, are coming for Mr. Toomey that we may ask 
of the witnesses.
    But at this time, our witnesses are excused. Thank you for 
just a wonderful hearing. And we are now adjourned.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Timothy Persons

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Dr. John Warner

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Dr. Julie Zimmerman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Ms. Anne Kolton

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Mr. Mitchell Toomey

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


           Letters submitted by Representative Haley Stevens

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
